OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

TRISHA MEGGS PATE
ASHLEY MOODY Bureau Chief, Criminal Appeals
ATTORNEY GENERAL The Capitol

STATE OF FLORIDA Tallahassee, Florida 32399-1050
Telephone (850) 414-3300
Fax (850) 922-6674

May 5, 2021

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: William Earl Ponder v. State of Florida,
Case No. 20-7666

Dear Mr. Harris:

The State of Florida recently received a copy of the petitioner’s petition for writ of
certiorari. Please be advised that the State of Florida will continue to follow its
long held position on these matters and will respectfully decline to answer petitions
filed in non-capital cases unless the Court requests a response. If the Court
requests a response, the State of Florida will provide one.

Respectfully submi

 

Bureau Chief,

Tallahassee Criminal Appeals
Fla. Bar No. 0045489
(850)414-3300

cc: Michael Ufferman

Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Dr,
Tallahassee, FL 32308
